APPLICATION AND
SOLICITATION
DISCLOSURE
VLVD6LJQDWXUH5HZDUGV9LVD5HZDUGV9LVD6HFXUHG
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Signature Rewards

8.99 to 

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards

6.99 to 

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured

6.99 to 

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

Visa Signature Rewards
 Introductory APR for a period of six billing cycles.
After that, your APR will be 8.99 to  , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards
6.99 to  , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

APR for Cash Advances

Visa Secured
6.99 to  , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Rewards
8.99 to  , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards
6.99 to  , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured
6.99 to  , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
SEE NEXT PAGE for more important information about your account.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04502863-MXC10-C-2-112219 (MXC101-E)

For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee - Visa
Signature Rewards
- Foreign Transaction Fee - Visa
Rewards, Visa Secured
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
None
None
1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars
Up to $29.00
None
Up to $15.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Signature Rewards: The Introductory APR for balance transfers will
apply to transactions posted to your account during the first six billing cycles following the opening of your account. Any
existing balances on Chartway Federal Credit Union loan or credit card accounts are not eligible for the Introductory APR
for balance transfers.
Effective Date: The information about the costs of the card described in this application is accurate as of: April 1, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.

.

For California Borrowers, the Visa Signature Rewards, Visa Rewards and Visa Secured are secured credit cards.
Credit extended under this credit card account is secured by various personal property and money including, but
not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral
for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee: $29.00 or the amount of the required minimum payment, whichever is less, if you are more than five
days late in making a payment.
Returned Payment Fee: $15.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee: $15.00.
Document Copy Fee: $5.00.
Emergency Card Replacement Fee: $20.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04502863-MXC10-C-2-112219 (MXC101-E)

